INTERIM REPORT ON AWARD-FEE CRITERIA
 FOR THE TRANSPORTATION INFORMATION
      PROJECT SUPPORT CONTRACT
                    Volpe Center
  Research and Innovative Technology Administration

            Report Number: FI-2008-070
            Date Issued: August 14, 2008
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Interim Report on Award-Fee Criteria                                      Date:    August 14, 2008
           for the Transportation Information Project
           Support Contract
           Volpe Center, Research and Innovative
           Technology Administration
           Report Number: FI-2008-070

  From:    Mark H. Zabarsky                                                               Reply to
                                                                                          Attn. of:   JA-60
           Assistant Inspector General for
            Acquisition and Procurement Audits

    To:    Acting Director, Volpe Center

           As part of our ongoing audit of the Use of Cost-Plus-Award-Fee (CPAF) contracts
           within the Department, we are issuing this interim report regarding the award of
           the Volpe National Transportation Systems Center (Volpe) 1 Transportation
           Information Project Support (TRIPS) contract for information technology support.
           The objectives of our audit were to determine whether: (1) award-fee plans
           established adequate criteria for evaluating contractor performance, and (2) the
           amount of award fees paid to contractors was adequately supported.2

           On February 7, 2006, Volpe awarded a 5-year, hybrid-structured contract to
           Computer Sciences Corporation (CSC) for a broad range of information
           technology support services. This contract includes both CPAF and fixed-price
           line items for approximately $178 million. Volpe established an award-fee pool
           totaling about $8.9 million. The contractor is currently in the fifth award-fee
           performance period. 3 Approximately $4.4 million in award-fees remain available
           for the sixth and subsequent performance periods. The TRIPS contract states that
           Volpe may unilaterally change the performance evaluation plan provided the
           contractor receives notice of the changes at least 45 days prior to the beginning of
           the evaluation period to which the changes apply.

           1
               Volpe is part of the Research and Innovative Technology Administration (RITA) of the Department of
               Transportation.
           2
               This interim report does not address the second objective, which will be addressed in our Department-wide audit of
               award fees.
           3
               A performance period is a 6-month timeframe.
                                                                                                                          2

We performed this audit in accordance with generally accepted government
auditing standards as prescribed by the Comptroller General of the United States.
The details of our scope and methodology are presented in Exhibit A. The
information in this interim report will be included in a later report addressing
Department-wide CPAF contracting issues.


FINDINGS
We found that Volpe did not structure the performance evaluation plan in a way
that effectively motivated the contractor to improve performance and achieve
acquisition outcomes. Volpe officials stated that they used the National
Aeronautics and Space Administration’s (NASA) Award-Fee Contracting Guide
as a reference in preparing the TRIPS performance evaluation plan. NASA
developed this guidance to improve the effectiveness of using award-fee contracts.
For example, the guidance emphasizes tying fees to outcome-based 4 criteria and
evaluating the costs and benefits of such contracts before using this contract type.

We found that Volpe did not always follow the preferred approach laid out in
NASA’s guidance. For example, the criteria in the performance evaluation plan
were vague and did not include measurable criteria needed to adequately evaluate
contractor performance. Further, the descriptions defining adjectival ratings were
vague and inconsistent and did not clearly define the basis for assigning such a
rating. This resulted in performance monitors arbitrarily determining which
ratings they believed best reflected how well the contractor performed. The effect
of having evaluation criteria without clearly defined metrics, and vague and
conflicting adjectival ratings, could result in inflated contractor performance
evaluations and, consequently, inappropriately approved award fees.

Also, although the Federal Acquisition Regulation (FAR) and NASA’s guidance
require considering the costs and benefits before choosing a CPAF contract
because of the cost and administrative burden associated with these contracts,
Volpe did not perform such analysis. Through an evaluation of the administrative
costs versus the expected benefits, the contracting officer should be able to assess
whether the benefits the Government gains through a CPAF contract will
outweigh the additional costs of overseeing and administering the contract.
Without such an evaluation, Volpe had no assurance that a CPAF-type contract
was appropriate. As a result of our audit, senior Volpe officials agreed to take
action to address issues cited in this report.

4
    Outcome-based criteria are measurable, quantifiable factors. They assess the results of an activity compared to its
    intended purpose. An example of an outcome criterion is to ensure that 99.5 percent of payment vouchers are paid
    within 30 days of receipt.
                                                                                  3

Performance Evaluation Plan Award-fee Criteria Were Too Vague
The performance evaluation plan did not include clear and measurable award-fee
criteria needed to adequately evaluate contractor performance. For example, the
Quality of Deliverables criteria used undefined terms such as “achieves high
quality deliverables” as the standard of review. The Timeliness of Deliverables
criteria used general terms such as “Contractor provides timely notification of
potential schedule slippages” and the Project Staffing and Planning factor used
vague wording that the “Contractor effectively staffs, plans and manages job
orders.”

NASA’s guidance states that outcome-based criteria are the least administratively
burdensome type of performance evaluation criteria, and should provide the best
indicator of overall success. Guidance from other Federal Government agencies,
such as the Departments of the Air Force, Navy, and Army, also prefer using
measurable criteria to evaluate contractor performance. Additionally, guidance
from these agencies, including NASA, states that using evaluation criteria that are
too broad can result in evaluators not being able to provide meaningful comments
to support ratings.

Establishing specific criteria based on performance objectives would reduce the
risk of unwarranted or subjective performance evaluations and ratings.
Performance monitors, i.e., Volpe staff who track and assess contractor
performance daily, cannot provide meaningful comments and evaluations using
too-broadly-defined criteria. The effect of having evaluation criteria without
establishing clear and measurable metrics for assessing performance could result
in inflated contractor performance evaluations and, consequently, inappropriately
approved award fees. For the first four award-fee periods of the TRIPS contract,
Volpe paid the contractor approximately $3.4 million (93 percent of the available
award fee) without assurance of whether the acquisition outcomes fell short of,
met, or exceeded expectations. Without indicating areas of emphasis or desired
outcomes, Volpe does not have assurances that contract objectives are being met,
nor does the contractor have motivation to perform the best possible job in those
areas deemed critical.

Additionally, Volpe did not provide performance monitors with a performance
evaluation plan containing the award-fee criteria. Instead, they provided the
monitors a questionnaire to fill out at the end of each performance period. In our
comparison of the award-fee criteria in the performance evaluation plan with the
questionnaire, we found that three criteria were inadvertently missing from the
questionnaire—under the category of Financial and Business Management.
Having thorough and complete evaluation criteria is critical as it indicates to the
contractor and performance monitors which aspects of contractor performance are
most significant during the evaluation period. Missing criteria could result in
                                                                                   4

missed opportunities to motivate the contractor and help to mitigate significant
Government risks.


Adjectival Rating Factors Were Too Vague and Inconsistent for
Rating Performance
The conversion table (Exhibit B) used to compute the amount of award fee
contains a payment structure that associates a range of award fees (between 0 and
100) with four adjectival ratings—Excellent, Very Good, Satisfactory, and Poor.
The descriptions defining the adjectival ratings, however, did not clearly define
the basis for assigning such a rating. For example, a rating of very good is defined
as:

      “Contractor’s performance of most contract tasks is consistently above
      standard and provides highly effective results; several strengths observed.
      The few, if any, weaknesses have minimal adverse effect on overall
      performance; there are no deficiencies. Although some areas may require
      improvement, these areas are minor and are more than offset by better
      performance in other areas. The few, if any, recurring problems have been
      noted. Contractor identifies problems in timely manner and solutions are
      implemented with no adverse impact on quality, cost, schedule, or
      timeliness.”

Terms, such as “above standard,” “highly effective results,” and “timely manner”
are undefined. Performance monitors used personal criteria, applied arbitrarily,
that possibly resulted in the Government overpaying award fees with funds that
could have been put to better use. Discussions with eight performance monitors
revealed that each had a different interpretation on how to apply the adjectival
ratings to contractor performance. For example, to rate the quality of the work
performed by the contractor on a project, one monitor stated that an “excellent”
rating equated to having one error in a report, while another monitor stated three.
In another example, one monitor said that to assign a rating of “very good,” the
contractor must perform only minor rework, while another said that the
contractor’s performance was “above and beyond meeting the requirements
without raving comments” from the sponsor.

Additionally, Volpe’s performance evaluation plan for its TRIPS contract contains
inconsistent descriptions of adjectival rating factors.        For example, a
“satisfactory” rating is defined, in part, as:

      “…Contractor’s performance of most contract tasks is effective and
      provides adequate results; some strengths and weaknesses observed; any
      reportable deficiencies have a limited impact on overall performance.”
                                                                                                  5

We compared the above definition of a satisfactory rating to the plan’s description
of the terms “weaknesses” and “deficiencies,” and found they do not support a
satisfactory rating.


  Table 1. Definitions of Performance Weakness and Deficiency
          Performance Weakness                                   Performance Deficiency

“Performance that has resulted in                         “Performance      that    has     created
serious disruption in quality, effort,                    unacceptable results and/or failed to
cost, schedule, or impact. Performance                    address, and/or meet contract, task
that has negatively impacted the                          order or job order level requirements or
project and increased the risk of                         performance evaluation criteria.”
unsuccessful delivery of high quality
products or services on time and/or
within budget.”
Source: Volpe’s performance evaluation plan for TRIPS contract

Volpe must clearly describe its adjectival ratings so there will be a basis for
performance monitors and award-fee board to use in assessing contractor
performance.


Volpe Has No Assurance That Contract Type Is Appropriate For the
TRIPS Contract
Volpe contracting officials did not justify the cost effectiveness of selecting a
CPAF-type contract. Performance evaluation on an award-fee contract requires
greater effort and more resources than other types of contracts because oversight is
required to monitor and document contractor performance. FAR and award-fee
guides used by other Federal agencies require agencies to consider the costs and
benefits before choosing a CPAF-type contract. For example, NASA guidance
states that before a CPAF contract is selected, a contracting officer should perform
a cost-benefit analysis of the expected benefits versus the added administrative
costs.
                                                                                                    6



RECOMMENDATIONS
We recommend that the Acting Director, Volpe Center, direct the Chief of the
Contracting Office, Volpe, to:

1. Develop measurable award-fee criteria for evaluating contractor performance.

2. Revise the questionnaire to include all award-fee criteria contained in the
   performance evaluation plan.

3. Describe adjectival ratings clearly so there will be a defined basis for assessing
   performance and ratings consistent with the conversion table.

4. Reevaluate the contract type for future TRIPS procurement contracts and
   justify the use of an award-fee contract by performing a cost/benefit analysis.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL’S
RESPONSE
We discussed the issues cited in this report with senior Volpe officials on February
8, 2008. As a result, senior Volpe officials agreed to take the following actions to
address the deficiencies cited in this report: 5

       • Update the current performance evaluation plan to add more measurable
         award-fee criteria.

       • Re-examine the adjectival rating definitions and improve them for the
         award-fee board to use in assessing contractor performance.

       • Conduct a training session with contracting officer technical representatives
         and job order initiators to ensure consistent performance monitoring and
         evaluation.

       • Reevaluate the contract type for future TRIPS procurement contracts and
         justify the use of an award-fee contract.

As Volpe’s management actions are ongoing at the time of this report, we cannot
evaluate the efficiency of these actions; however, we believe the results of these
actions will correct problems identified in this report. Implementing the planned
corrective actions will put approximately $4.4 million in expected award-fees to


5
    Volpe’s planned corrective actions were provided in separate memorandum, dated June 12, 2008.
                                                                                   7

better use by revising the performance evaluation plan and ensuring Volpe’s
acquisition objectives are being met.


ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. If you
concur with the recommendations, please indicate the specific action taken or
planned and provide the target date for completion. If you do not concur with the
findings or recommendations, please provide your rationale. You may provide
alternative courses of action that you believe would resolve the issues presented in
this report. Also, please comment whether you agree that the estimated $4.4
million in award-fees for the TRIPS contract could be put to better use by revising
the performance evaluation plan.

We appreciate the courtesies and cooperation of Volpe representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-5225 or Terrence Letko, the Program Director, at (202) 366-9917.

                                         #


cc:   Research and Innovative Technology Administrator
      Volpe National Transportation Systems Center Director
      Senior Procurement Executive
      Director, Office of Acquisition Services, RITA
      Martin Gertel, M-1
      Timothy Klein, RTG-30
      Dilcy Garro, Volpe Audit Liaison
                                                                                 8



EXHIBIT A. SCOPE AND METHODOLOGY

This report is associated with our Department-wide audit of the Use of
CPAF Contracts, Project Number 07F3011F000. We conducted this
performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our objectives, we reviewed the:

   ¾ Performance evaluation plan;

   ¾ Statements of work and deliverables for the contracts and selected
     task orders;

   ¾ Performance monitors’ rating results;

   ¾ Federal Acquisition Regulation;

   ¾ Transportation Acquisition Regulation;

   ¾ Best Practices for award-fee contracts (Departments of the Army, Navy,
     and Air Force, National Aeronautics and Space Administration, and
     Environmental Protection Agency Award-Fee Guides) and;

   ¾ Grading methodologies of performance monitors.

We also interviewed:

   ¾ Eight performance monitors or job order initiators to determine how they
     rated the contractors’ performance; and

   ¾ Volpe acquisition and program officials regarding the performance
     evaluation plan and the award-fee process.




Exhibit A. Scope and Methodology
                                                                               9



EXHIBIT B. TRANSPORTATION INFORMATION PROJECT
SUPPORT CONTRACT AWARD-FEE CONVERSION CHART

This chart is used to determine the percentage of award fees earned from the
available award-fee pool:




              Adjectival Rating                  Percentage of Fee


                   Excellent                           90-100


                  Very Good                             80-89


                  Satisfactory                          65-79


                      Poor                                0




Exhibit B. Transportation Information Project Support Contract
Aw ard-Fee Conversion Chart
                                                          10



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Terrence Letko                       Program Director

  Dormayne Dillard-Christian           Project Manager

  Christopher Minovich                 Senior Auditor

  Jelilat Ojodu                        Auditor

  Jean Diaz                            Writer/Editor




Exhibit C. Major Contributors to This Report
The following pages contain textual versions of the charts found in this document.
These pages were not in the original document but have been added here to
accommodate assistive technology.
        Interim Report on Award-Fee Criteria for the Transportation
                   Information Project Support Contract

                      Section 508 Compliant Presentation


Table 1. Definitions of Performance Weakness and Deficiency

Performance Weakness is described as “Performance that has resulted in serious
disruption in quality, effort, cost, schedule, or impact. Performance that has
negatively impacted the project and increased the risk of unsuccessful delivery of
high quality products or services on time and/or within budget.”

Performance Deficiency is described as “Performance that has created
unacceptable results and/or failed to address, and/or meet contract, task order or
job order level requirements or performance evaluation criteria.”

Source is Volpe’s performance evaluation plan for TRIPS contract.



Exhibit B. Transportation Information Project Support Contract Award-Fee
Conversion Chart

An adjectival rating of excellent earns a 90-100 percent award fee from the
available award-fee pool.

An adjectival rating of very good earns an 80-89 percent award fee from the
available award-fee pool.

An adjectival rating of satisfactory earns a 65-79 percent award fee from the
available award-fee pool.

An adjectival rating of poor does not earn a percent of the award fee from the
available award-fee pool.
